CASE NO.
IN THE SUPREME COURT OF THE UNITED STATES
DOUGLAS COLEY, Petitioner,
vs.
STATE OF OHIO, Respondent.

On Petition for Writ of Certiorari to the Ohio
Court of Appeals for the Sixth Appellate District

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

CA

tate Supreme (Erfurt of

Itig

MAY I 2 2871

CLERK OF COURT
SUPREME COURT OF OHIO

State of Ohio
Case No. 1998-1474
v.
ENTRY
Douglas Coley

This cause came on for further consideration upon the filing of appellant's motion for
relief It is ordered by the court that the motion is denied.
(Lucas County Court of Common Pleas; No. CR971449)

Maureen O'Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

A -1

The $upreme (Court el @Ilia

MAY 12 2020

cLERK oF COURT
51.1PRENE COUVU. OF GEM

State of Ohio

Case No. 2020-0080

v.

ENTRY

Douglas Coley

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Lucas County Court of Appeals; No. L-19-1004)

Maureen O'Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/
A-1

FII tt- r,
IN THE COURT OF C9MMON'PLI1YA43-,C1F LUCAS COUNTY, OHIO
AUG /)
STATE OF OHIO
LasOlo. CR971449
*
Plaintiff/Petitioner

t

VS.

*

qT

°P,

DOUGLAS COLEY
Defendant/Petitioner
MOTION TO APPOLNT COUNSEL
PURSUANT TO OHIO REVISED CODE SECTION 2953.21(1)(1)

Now comes the Petitioner, Douglas Coley, and petitions this Honorable Court
for the appointment of counsel to pursue post-conviction relief pursuant to Ohio
Revised Code Section 2453.21(1)(1).
Sub. S.B. 258 as passed by the House and Senate and effective July 1, 1996,
requires the appointment of counsel for persons under a sentence of death who intend
to pursue and litigate a Petition for Post Conviction Relief pursuant to RC. 2953.21,
el seq:
(I)(1) Lf a person who has received the death penalty intends
to file a petition under this section the court shall appoint counsel to
represent the person upon a finding that the person is indigent . .
The court may decline to appoint, counsel, for the person only upon
a finding .. that the person rejects the appointment of counsel and
understands the legal consequences of that decision or upon a finding
that the person is not indigent.
Id. (emphasis added).
-

This Court sentenced Petitioner to death on June 8, 1998. In his capital trial

before this Court, Petitioner was found to be indigent and was represented by
appointed counsel. Further, due to Petitioner's indigent status, Petitioner has
received appointed counsel for his, appeal of his capital conviction and death sentence.

A-2
Motion for Relief
Exhibit A-1

409

Thus, there is no question that Petitioner has been, and continues to be, indigent. See
also Exhibit A.
Therefore, Petitioner is an indigent person sentenced to death in Ohio, who
intends to pursue and litigate a petition for post conviction relief, and is thus entitled
to the appointment of counsel to represent him pursuant to Ohio Revised Code
Section 2953.21(1)(1).
WHEREFORE, Petitioner respectfully request that this honorable Court
appoint undersigned counsel to represent him in his petition for post conviction relief

Respectfully submitted,

DO
AS COLEY-PRO S
#361 4
Mansfield Correctional Institution
P.O. Box 788
Mansfield, Ohio 44901

CERTIFICATE OF SERVICE
I hereby certify that a true copy of the foregoing MOTION FOR
APPOINTMENT OF COUNSEL was forwarded by regular U.S. Mail to the Lucys
County Prosecutor's Office, 700 Adams Street, Toledo, Ohio 43624 on this tarliday
1998.
of a-r oi*
j

a "le
DOIJ AS COLEY-PRE

A-3
Motion for Relief
Exhibit A-2

410

IN THE COURT OF COMMON PLEAS
LUCAS COUNTY, OHIO

STATE OF OHIO,
Respondent,

: Trial Court No. 97-1449

vs.
DOUGLAS COLEY,

: DECISION AND JUDGMENT ENTRY

Petitioner,.

Decided:
*******

This matter is before the court on Petitioner Coley's motion for appointment of counsel to
assist in the preparation and filing of Petitioner Coley's petition for post-conviction relief.
Upon due consideration, Petitioner Coley's motion is found well-taken. Counsel will be
appointed by this Court, through a separate Entry.

JUDGE RUTH ANN FRANKS

A-4
Motion for Relief
Exhibit B-1

441

FILED.
LUCAS GOIiNT
FEB ZIN vg cpusT OF COMMON PLEAS
LUCAS COUNTY, OHIO
STATE OF OHIO, COMMON PLEAS COURT
HARRY RLOS
CLERK err'flrgi--r.
Respondent,
-vs-

Case No. 97-1444
JUDGE FRANKS

DOUGLAS COLEY,
Petitioner.

: THIS IS A DEATH PENALTY CASE

MOTION FOR APPOINTMENT OF COUNSEL
Now comes the Petitioner, Douglas Coley, pro se, and petitions this Honorable Court for
the appointment of counsel. Counsel is necessary so that Petitioner Coley can pursue his
statutory right to post-conviction relief.
The United States Supreme Court, in Gideon v. Wainwright, 372 U.S. 335 (1963), held
that the Sixth Amendment right to counsel was 'so fundamental and essential to a fair trial, and
to due process of law, that it is made obligatory upon the States by the Fourteenth Amendment.' "
Id., 372 U.S., at 340, quoting Betts v. Brady, 316 U.S. 455, 465, (1942). The decision in Gideon
rested on the "obvious truth" that lawyers are "necessities, not luxuries" in our adversarial system
of criminal justice. 372 U.S., at 344, 96. "The very premise of our adversary system of criminal
justice is that partisan advocacy on both sides of a case will best promote the ultimate objective
that the guilty be convicted and the innocent go free." Herring v. New York, 422 U.S. 853, 862
(1975). The defendant's liberty depends on his ability to present his case in the face of "the
intricacies of the law and the advocacy of the public prosecutor: United States v. Ash, 413

A-5

Motion for Relief
Exhibit C-1

437

•

300, 309 (1973). This same analysis should be applied in assessing Petitioner Coley's request for
appointment of post-conviction counsel to represent him before this Court.
Further, pursuant to R. C. 2953.21, Ohio's post-conviction statute, Petitioner is entitled to
the appointment of counsel to assist him in pursuing his right to post-conviction relief. Sub. S.B.
258 as passed by the House and Senate and effective July 1, 1996, requires the appointment of
counsel for persons under a sentence of death who intend to pursue and litigate a Petition for
Post Conviction Relief pursuant to R.C. 2953.21, et seq:
(I)(1) If a person who has received the death penalty intends to file
a petition under this section the court shall appoint counsel to
represent the person upon a finding that the person is indigent ...
The court may decline to appoint counsel, for the person only upon
a finding ... that the person rejects the appointment of counsel and
understands the legal consequences of that decision or upon a
finding that the person is not indigent.
Id. (emphasis added).
In his capital trial before this Court Petitioner was found to be indigent and was
represented by appointed counsel. Petitioner has been incarcerated on Ohio's Death Row since
He was convicted and sentenced to death. Thus, there is no question that Petitioner has been, and
continues to be, indigent.
Petitioner Coley, through this Motion, gives notice of his intention to pursue postconviction relief pursuant to Ohio Revised Code Section 2953.21(1)0). He is therefore entitled
to the appointment of counsel.
Section 2953.21(1) (2) provides:
The court shall not appoint as counsel under division (I)0) of this section an attorney
who represented the petitioner at trial in the case to which the petition relates unless the person
and the attorney expressly request the appointment. The court shall appoint as counsel under
division (D(1) of this section only an attorney who is certified under Rule 20 of the Rules of
Superintendence for Courts of Common Pleas to represent indigent defendants charged with or
' Attached as Exhibit A to this Motion is Petitioner Coley's affidavit of indigency.

S
A-6

Motion for Relief
Exhibit C-2

438

•

convicted of an offense for which the death penalty can be or has been imposed. The
ineffectiveness or incompetence of counsel during proceedings under this section does not
constitute grounds for relief in a proceeding under this section, in an appeal of any action under
this section, or in an application to reopen a direct appeal.
Petitioner is therefore entitled to counsel who is certified under Rule 20 of the Rules of
Superintendence for Courts of Common Pleas to represent him in his post-conviction
proceeding.
In sum, the appointment of counsel is necessary to ensure the protection of Petitioner's
rights under the Fourteenth Amendment. As the United States Supreme Court has stated, when a
state opts to act in a field where its action has significant discretionary elements, it must
nonetheless act in accord with the dictates of the Constitution—and, in particular, in accord with
the Due Process Clause. Evitts v. Lucey, 469 U.S. 387, 401 (1985).
WHEREFORE, Petitioner respectfully requests that this honorable Court appoint counsel
certified under Rule 20, to represent him in his post conviction relief proceeding before this
Court.
Respectfully Submitted,
De as Coley
Pro Se
CERTIFICATE OF SERVICE
I hereby certify that a true copy of the foregoing MOTION FOR APPOINTMENT OF
COUNSEL was forwarded by regular U.S. Mail to Julia Bates, Lucas County Prosecutor, 700
day of January, 1999.
Adams Street, Toledo, Ohio 43264-1680, on this

Do las Coley
Pro Se

A-7
Motion for Relief
Exhibit C-3

439

FILED
LUCAS COUNT:7
FEB 21-1

10 45

AM '93

COMHOM LE' COURT
HAiCirf LIA:fl.OS
C! ER

IN THE COURT OF COMMON PLEAS OF LUCAS COUNTY, OHIO

State of Ohio,

CASE NO. 97-1449

Plaintiff
JUDGEMENT ENTRY

vs.
Douglas Coley,
Defendant.

This cause is before the Court on the defendant's motion for post conviction relief. 'The
record in this matter reflects that on September 28,1998, this Court appointed Attorney Joseph
Anthony Benavides, pursuant to O.R.C. 2953.21 (I)(1) to pursue post conviction relief on behalf
' of the defendant
Based upon the foregoing, the Court finds said motion moot.

February 24,1999
Judge Ruth Ann Franks
cc: Dean Mandross, Assistant Lucas County Prosecutor
Joseph Anthony Benavides, Attorney at Law
Douglas Coley, Defendant

JOURNALIZED
FEB 2 4 1999
Cassette

PG.
A-S

Motion for Relief
Exhibit D-1

443

or ecA04,4
Ss.

51;211-- GF

6

°Hp
6 dile/ .

4,44 ebb" en

Z."

4-A 0 14,16-576 0r 74-

.2- h fre

ense.,,,

t

00A41.4-411

Ar..44.7740.0

prseidi:
e:41
4ntWo,11/.114 l
/1/2.eifred A

A

r

A rfert

AC-1104,74'

"1"091 .

/€01, --?-7

/
"9Sote>, OS-re

a fiez

4-4.94teizz

?.fir /. se&I.-44,o6z Witai

70ed

7ZE'

.4e r ege ;es,

/7/Taeovey Mevadeeki 4v/ leek

/e6;02676vr NE 0A, 46,6-4(t

Apopetv.e/tez,

.fit

ifezz.. Arab

eckv%,i,6-1 .4A, ffio4 1./7 C Atooliisewei e • -r s
.9 on)"

746TA-7 7 4

.4e1
s

.tearitteri

7a. Ate /5e,,„01,04,4.r.

cm.

e

eittal atew ;

7Z .5
e L-t-ere

A-9

Motion for Relief
Exhibit E-1

24

PAS
A ivy (Am-5

frkai

i 12
f

&err r 7;s:76-.

/fritadatez

irseci /5€0,4.

z.

Z000. -re /magi

id .

Scr44t freiirt

XThifidal k eivasty

Ado*T eigsr avveZ-di

Wid mer gorde-

/1.4 egveneeldez.,
h tIa-d /c
0,4- Aorr

oe-e-6 .frr. -2— 47 s.,&zal

004,

A 10 tc-r fig. k4w .0 e'er..
/Ire 7*47-

eer

vi-ae

A

.84%,4 dat

eeted zei;
4-cir zr
.90

n.a: .1-ir e

AirsZlia 4% 4es-0
0.4ree- 0 et A-ty

.

st4afee ier

10,62064

A-10
Motion for Relief
Exhibit E-2

25

P436 3
0

z000

rtv frfrix

be;v.i.toi 0,7- 7;47-

se-Amvart did Aar t.-ze.1cc 4r
r

•

Coilrfered Tie 08/0 Audi

goetkeA

Mhz

or5ce
•

11t-7
(L)

r

77,44-

Ag-4.0/6 e 5: onier

7-zr

k, 11;-01 Re AS at At 6"

(Dail ,ior "efreee427 Ale

("all

/26134eretifial krne/0/1 a,erev,

Aknie keia

Net;

/2.

toCM"

Az,efred

adweie giA? 4/etc/J_-

itivZ

•Neveet,•eso-Ai kis/red
Ague.

efr dyraey
.

geots, GI/rt.

-Zs was ifreett, .1 sial4 A . esie,444t
evy • z ss- ass
.e a is, tea,/ /

74? Coa&;,

door / zit?
Motion for Relief
Exhibit E-3

6e

eArZ

aC 04, 440E4
26

/Pk - &VA if 11E2- Ne peot.

oist ite

gee-Se te;
k

y cow._

77f-F deet; 10.4,

devymr:i Afy

segex

se-4,7 me ie eblope
a/025.4te ecntetr

t tie Q%//o.

Afifew

a,
44,72,1 7
/ e6-6

0047eafres

edzia-/-7 0.ez ordeA. fieve-)25-

semi/wiz

e.

lareed

779,

gr t?ezil

cø71. Airrazurae7744,
"to7a; rovz-

ee-5ege7Swr Ace
ab444-6-C.
..
.
. ,i,
. ritT
(794467:. revr
Arr ..Cb.4,k/e7/0:4)
I

94,5164.
. ft (e.zelf .dy 440b.este

7.4 Alas-

17

.124v6.

04

Me 0 $)
/" 4/6 TAI;" A427; 2reins647

f;

Motion for Relief
Exhibit E-4

/

27

•

at- /4 I
cbs'rebivnera;
No 4E744

&Am whz

E744(Co04,1) , 2- 2664/ CIA/ A.
<a 4,447.4 € p Oise-

/111
°P.,- 447 61376.

gem videz 061

did a .
tie-441

A' .5-

1
/”.4
4

ME AA.) 14,R14.s

4,

o4

/1&.

1
.4g9tteL„..

Str aw .7; Awe . ',se/Ia./vied ix; ..mx
.fi/.49-.07.4cr .

/V 7' ez;4,.cd o4

44"..46-At 16:4-

ittITH A. IMAM
MOW ATM

ID COMM= MIT OM
Ign

A-13
Motion for Relief
Exhibit E-5

28

CLERK OC COURTS

MAHONING COUNTY, 01110

IN THE COURT OF COMMON PLEAS
MAHONING COUNTY, OHIO

SEP 2 9 2020

117.
ANTHONY 34,

STATE OF OHIO,
Plaintiff,

CASE NO. 2015-CR-1132

v.
LANCE HUNDLEY,
Death Penalty Case
Defendant.

ORDER ON UNOPPOSED DEFENDANT'S MOTION FOR APPOINTMENT OF
COUNSEL FOR FIRST POST-CONVICTION REVIEW

On motion and for good cause shown, the following attorneys are appointed to prosecute
a first post-conviction petition on behalf of the defendant, Lance Hundley.
Attorney 1:

R(IA

Attorney

2:ciohn P. LAaiko

Judge:
Date: Cl 14.0

To the Clerk: Please send a copy of this order to all counsel and/or unrepresented parties
by regular U.S. Mail forthwith.

11111111111111111111111111111111111111111111111111111111111111111

2015 CR
01132
00036609799
CRJUD

A-14

Motion for Relief
Exhibit G-1

Fw: Doug Coley
Carol Wright to: kmcafferkey, jgibbons4

. 04/15/2015 03:28 PM

Mr. Cafferky and Mr. Gibbons,
I called each of you again today. Mr. Cafferky your phone does not accept voice mail.
Mr. Gibbons I left a second message today on your phone to please contact me
regarding Doug Coley and left my direct office line.
At this point I feel that I have to respond to Mr. Coley's letter requesting help. I plan to
set up a call with him if I have not heard from you by 4:00 p.m. Friday April 17, I will set
up the call for next Monday or Tuesday depending on the prison staff and schedule. I
will advise him that he needs to write to the court and that he should request advisory
counsel to assist his current counsel with a clemency investigation and ,presentation. I
will explain that his case is in the Northern District and that he should request the Capital
Habeas Unit of the Northern District be appointed as advisory counsel to assist you
both. I know the some judges have been willing to do that in the Northern District
If you object to this plan, please let me know.
Carol
Carol Wright
Supervising Attorney
Capital Habeas Unit
Federal Public Defender, Southern Ohio
10 W. Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999

This e-mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized
employee or agent responsible for delivering it to the intended recipient you are hereby notified that any
dissemination or copying of this e-mail is strictly prohibited. If you have received this e-mail in error,
please notify us by reply e-mail. Thank you for your cooperation.
---- Forwarded by Carol Wright/OHSF/06/FDO on 04/15/2015 03:26 PM ---From:
To:
Cc:
Date:
Subject:

Carol Wright/OHSF/06/FDO
kmcafferkey@hotmail.com, Igibbons4@sbcgDbatnet
Alan Rossman/OHNF/06/FDO@FDO
04/14/2015 11:04 AM
Fw: Doug Coley

Mr. Cafferkey and Mr. Gibbons,
I've called several times and not been able to reach you regarding this client Kevin, we
spoke briefly but I have not been able to follow up with you in any way. Please contact

A-15
Motion for Leave
Exhibit 1-1

me so we can get something arranged for Mr. Coley. He has a pending request for
execution date and the Ohio Supreme Court could set a date at any time. I feel like I
need to get back to him on his request. It seems like Martinezwould allow for additional
litigation if investigation revealed something. My direct line is 614-469-4110 and my cell
phone is 614-506-0283.
Carol
Carol Wright
Supervising Attorney
Capital Habeas Unit
Federal Public Defender, Southern Ohio
10 W. Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999

This e-mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized
employee or agent responsible for delivering it to the intended recipient, you are hereby notified that any
dissemination or copying of this e-mail is strictly prohibited. If you have received this e-mail in error,
please notify us by reply e-mail. Thank you for your cooperation.
Forwarded by Carol WrightIONSF/06/F00 on 04/14/2015 10:59 AM ---From:
To:
Cc:
Date:
Subject:

Carol Wright/OHSF/06/FDO
kmcafferkey@hotmail.com, jgibbons4@sbcglcbal.net
Alan Rossman/OHNF/06/FDO@FDO
03/30/2015 02:01 PM
Doug Coley

Mr. Cafferky and Mr. Gibbons,
I was contacted by your client Doug Coley. He explained what had
occurred in his case. He had some questions related to Martinezand
clemency procedures. I looked into his case and realized that he never had
a post conviction filed on his behalf. I know that you two tried to argue that
post conviction counsel's failure to file should be cause to permit additional
grounds in federal court. Of course, your arguments were before Martinez.
They may be much more viable now. Additionally, it seems like a full blown
investigation needs to be done for clemency as well as any Martinez
arguments. Because this is a Northern District Case, I contacted Alan
Rossman for his advice. Alan took a look and believes his office has the
resources to help with the clemency investigation and development of
possible new legal issues. Could we perhaps set up a conference call with
Alan, myself and both of you to discuss and how best to go about it? I have
not responded to Mr. Coley and will wait to hear from you.

A-16
Motion for Leave
Exhibit 1-2

Sincerely,
Carol
Carol Wright
Supervising Attorney
Capital Habeas Unit
Federal Public Defender, Southern Ohio
10 W. Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999

This e-mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized
employee or agent responsible for delivering it to the intended recipient, you are hereby notified that any
dissemination or copying of this e-mail is strictly prohibited. If you have received this e-mail in error,
please notify us by reply e-mail. Thank you for your cooperation.

A-17
Motion for Leave
Exhibit 1-3

JOHN B. GIBBONS
ATTORNEY AT LAW
2000 STANDARD BUILDING. 1370 ONTARIO STREET
CLEVELAND, OHIO 44113
(216)363-6086
FAX: (216)363-6075

jgibbons4@sbeglobal.net

April 16, 2015
Carol Wright
Supervising Attorney
Capital Habeas Unit
Federal Public Defender, Southern District Ohio
10 W. Broad Street, Suite 1020
Columbus, Ohio 43215
RE:

Douglas L. Coley v. Norm Robinson, Warden
Case Nos.: 1:02-cv-04457
10-3469

Ms. Wright:
Mr. Cafferkey and I are in receipt of your various emails. Thank you for providing insight into
the Martinez v. Ryan case.
Your office is an effective resource to supplement the efforts of CJA Appointed Counsel.
It always helps to have an Agency of the United States Government, such as your office, and
government employed Attorneys, such as yourself, to provide assistance to, private counsel in
these types of cases.
You can be assured that myself and Mr. Cafferkey will carve out time within the next two weeks
to travel to the Chillicothe Correctional Institute to visit with Mr. Coley to review his legal and
personal options. In fact, arrangements are being made today for that visit. Therefore, and if
appropriate, we will schedule a conference call with your office.
However, Mr. Cafferkey and I have both represented Mr. Coley for over ten years and the last
time we checked, we remain Counsel of Record in his matters. Moreover, you claim to have had
a communication from Mr. Coley. Perhaps you can find time to provide that communication, if
it is in written form, to us, as we are still his Attorneys of record.
You can be assured that Mr. Cafferkcy and I react badly to your "plan" to visit Mr. Coley. We
also have reacted very badly to your statement that we must meet your deadlines. I did not know

A-18

Motion for Leave
Exhibit J-1

that you feel that you exercise supervisory authority over us. We have also reacted badly to your
"plan" to take over Mr. Coley's case.
In any event, we will contact you as needed.
Sincerely,

John B. Gibbons
JBG/ecg

A-19

Motion for Leave
Exhibit J-2

